Before the Subcommittee on Transportation, Treasury, the Judiciary,
Housing and Urban Development, and Related Agencies
Committee on Appropriations
United States Senate


 For Release on Delivery
 Expected at
 9:30 a.m. EST
                           Intercity Passenger
                           Rail and Amtrak
 Thursday
 March 16, 2006
 CC-2006-026




                           Statement of
                           Mark R. Dayton, Senior Economist
                           U.S. Department of Transportation, Office
                           of Inspector General
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to present the views of the Office of Inspector
General on Federal funding for Amtrak in Fiscal Year (FY) 2007.

Once again, as with last year, the key to maintaining fiscal discipline at Amtrak
will be the work of this Subcommittee and your colleagues in the House. We can
report today that the provisions the Committee put in place for this fiscal year are
having an impact: the Amtrak Board of Directors and current management seem
committed to reform, efficiency improvements are beginning to be implemented,
and some reductions in required operating subsidies are being realized. But the
heavy lifting has just begun and current reform efforts will require many years of
sustained commitment. Indeed, much of the financial benefits in the form of
significant operating loss savings will not occur for several years.

Absent a fundamental restructuring of the company through reauthorization, it will
fall to the Appropriations Committees to continue the pressure for reform,
specifically by limiting the funds made available to subsidize operating losses and
by making Federal support conditional upon further operational restructuring.

The Bottom Line. To maintain the currently configured system in a steady state
of repair and after accounting for the reform efforts already underway, the
FY 2007 appropriation for Amtrak would need to be about $1.4 billion. This
includes $485 million for cash operating losses, $600 million for capital spending,
and $295 million for debt service. The operating subsidy amount would continue
the pressure on Amtrak for reform put in place by Congress last year, the capital
amount would simply keep the system from falling into further disrepair, and the
debt service amount is Amtrak’s fixed costs for repayment of principal and
interest.

Despite this being almost a 7 percent increase over the FY 2006 enacted level, it is
a tight budget that would leave little or no margin for error in neither operations
nor investment. If an operating problem arose that affected revenue or expenses,
such as the Acela brake problem, or if an unexpected capital expense arose, such
as a bridge failure on the Northeast Corridor (NEC), Amtrak could face
insolvency, particularly if the problem were to occur late in the fiscal year after the
majority of funds had been spent or committed. Private companies of Amtrak’s
size often have access to lines of credit to reduce the risk associated with these
unforeseeable events or maintain cash reserves in an order of magnitude larger
than that typically held by Amtrak.
Working capital of $125 million would help address the risks Amtrak faces from
these unforeseeable events. To ensure these funds are used to cover fluctuations in
operations and not for ordinary course expenditures, appropriate controls should
be established. One approach for dealing with this problem is to impose the same
constraints on use of these funds as those in this year’s Efficiency Incentive Grants
whereby approval of the Secretary would be required before the year-end level of
working capital could fall below $125 million. Alternatively, a unanimous vote of
the Board of Directors could be required in the same event. In either case, if
Congress were to provide these funds, additional funds would not be needed for
this purpose in future years.

These funding requirements illustrate the fundamental dysfunction that we face
with Amtrak: just to maintain the current state of repair—not to address the
backlog of infrastructure needs, not to invest in short-distance corridors around the
country, not to recapitalize the equipment fleet—requires an $86 million increase
in Amtrak funding in FY 2007 and an increase of over $200 million to avoid
increased risks of insolvency, should Congress decide to provide $125 million for
working capital.

How Did We Get Here? Amtrak’s funding requirements actually have not
changed appreciably over the past 9 years – only the source of those funds has
changed. External funding to Amtrak (in addition to revenue and state support)
totaled $11.6 billion from 1998 through 2006 or almost $1.3 billion per year.1
Therefore, the current $1.4 billion estimate of requirements is in line with past
years. It differs, however, in that now all of it must come from direct
appropriations, whereas in past years some came from borrowing and some from
the Taxpayer Relief Act of 1997. Because debt service increased significantly
during this same time period, the $1.4 billion actually provides less funding for
operations and investment than prior year average subsidies.

What are the Solutions? As we testified previously, the current system needs to
be fundamentally restructured. Such a restructuring requires new authorizing
language for Amtrak programs and funding support. We have enumerated three
key goals for successful reform of intercity passenger rail service: (1) continuous
improvements in the cost-effectiveness of services provided, (2) devolution of the
power to determine those services to the states, and (3) adequate and stable
sources of Federal and state funding.



1
    This consists of $7.7 billion in Federal appropriations; $2.2 billion in capital funds from the Taxpayer
    Relief Act of 1997; and $1.7 billion in net, non-defeased (that is, not pre-funded) borrowing.


                                                                                                               2
These goals can be achieved through six programmatic changes: formula grants to
states for capital and operating costs of intercity passenger services, restoration of
the forward-going system to a state of good repair, capital matching grants to
states for corridor development, establishment of adequate Federal and state
funding, resolution of the legacy debt issues, and resolution of NEC ownership
and control.

Until a reauthorization is forthcoming, there is much that Amtrak management and
its Board can do to achieve these goals and program changes, assisted by this
Committee. The company has made strides in reforming its food service provision
and may have in place process that will achieve break-even or marginally
profitable provision of food service on its trains in the next 4 to 5 years, if it
follows through on these initial steps.

Much work remains, however, to eliminate the losses on first class sleeper service.
We continue to find unacceptable any Federal subsidy for first class passengers
and have yet to see plans for pilot programs to restructure these services.
Outsourcing of reservation and maintenance services has become widespread in
the transportation sector, but Amtrak has only begun to scratch the surface on
assessing its potential. As a condition to taxpayer support in any FY 2007
appropriation, particularly at levels approaching $1.5 billion, accelerated efforts in
these areas should be mandated. Such requirements for fiscal discipline from this
Committee and the Congress will keep Amtrak moving in the right direction so
that when a reauthorization is finally enacted, the company will be poised to
provide better, more efficient services for the country.

I will now discuss these issues in greater detail.

Amtrak’s Financial Condition Remains Precarious
Because it Has Not Structured Its Services to Match
Available Funding
The current model for providing intercity passenger service continues to produce
financial instability and poor service quality. Despite multiple efforts over the
years to change Amtrak’s structure and funding, we have a system that limps
along, is never in a state-of-good-repair, awash in debt, and perpetually on the
edge of collapse. In the end, Amtrak has been tasked to be all things to all people,
but the model under which it operates leaves many unsatisfied.




                                                                                    3
Operating Losses. Amtrak continues to incur substantial operating losses. It
ended FY 2005 with an operating loss of $1.235 billion. On the positive side,
during the first 4 months of FY 2006, Amtrak’s net operating loss was $49 million
less than last year and its cash operating loss, excluding interest

and depreciation, was $74 million less than the same period last year. It remains
to be seen if these improved financial results can be sustained for all of FY 2006.
In fact, Amtrak has indicated that operating within the $485 million operating
subsidy for this year will likely require some one-time actions in spite of its
performance to date.

Putting these results in perspective, the system continues to suffer operating losses
on all but a handful of routes. Operating losses on long-distance trains, excluding
interest and depreciation, were $529 million in FY 2005. Losses on some long-
distance trains (excluding depreciation and interest) exceed $400 per passenger.
For the last 5 years, annual cash losses have exceeded $600 million, though their
persistence at this level primarily is attributable to increased interest expense.
Amtrak has made some progress in controlling its cash operating loss, excluding
interest.

                                             Operating and Cash Losses
                                              FY 1997 through FY 2005

                 1,400                                                                                 1,331
                                                                      1,271                 1,293
                                                                                                                 1,235
                 1,200                                                          1,149

                 1,000                        916         944
                                 860
                         797                                              770
   $ millions1




                  800
                                                                                     631         644       617
                                       561          579                                                              606
                  600      549                                  561

                  400

                  200

                    0
                         1997    1998          1999       2000         2001        2002       2003      2004      2005

                                              Operating Loss           Cash Loss          Interest




                                                                                                                           4
Debt Burden. Amtrak is carrying a large debt burden. Its total debt peaked at
$4.8 billion in FY 2002 and has declined only slightly in the past 2 years. For the
foreseeable future, Amtrak’s annual debt service will approach $300 million.

                                                                     Short and Long-Term Debt
                                                                      FY 1997 through FY 2005

                                       5,000                                                     4,628         4,826      4,817         4,628
                                                                                                                                                       4,426
                                                                                                                3,852       3,773
                                       4,000                                                                                                 3,673
                                                                                      3,577        3,632
                                                                                                                                                       3,525

                                       3,000                                            2,798
       $ millions1




                                                                       2,449
                                                             2,157
                                       2,000    1,737                     1,792
                                                               1,536
                                                  1,216                                           996          974      1,044          955            901
                                       1,000                                          779
                                                521          621        657


                                          0
                                                  1997        1998        1999          2000       2001         2002       2003          2004          2005

                                                                              Short-Term Debt          Long-Term Debt          Total




Revenue and Ridership. While ridership increased to 25.4 million in FY 2005,
passenger revenues declined to $1.292 billion, and remain below the
$1.340 billion achieved in 2002. For the first 4 months of FY 2006, passenger
revenues were $31 million higher than the same period in FY 2005, mainly due to
fare increases. Ridership growth during this period was less than 1 percent.

                                                              Passenger Revenue and Ridership
                                                                  FY 1997 through FY 2005

                                        1,500                                                                                                           26


                                        1,250
                                                                                                                                                        24
               Revenue ($ millions)1




                                                                                                                                                             Ridership (millions)11




                                        1,000


                                          750                                                                                                           22


                                          500
                                                                                                                                                        20
                                          250


                                               0                                                                                                        18
                                               1993   1994    1995     1996    1997     1998    1999    2000    2001    2002     2003    2004        2005

                                                                                       Revenue          Ridership




                                                                                                                                                                                      5
On-Time Performance. On-time performance fell from 74 percent in FY 2003 to
70 percent in FY 2005, with even Amtrak’s premier service—Acela Express—
achieving on-time performance of only 76 percent. On-time performance for
long-distance trains averaged 41.4 percent last year, with the poorest performing
train, the Sunset Limited, having an on-time performance of only 7 percent.
Systemwide on-time performance through January 2006 was 66 percent, compared
to 72 percent for the first 4 months of FY 2005.

                                         Systemwide On-Time Performance
                                             FY 1997 through FY 2005


                            80%           79%    79%
                                                       78%
                                                                      77%

                                                               75%
       Percent On-Time 11




                            75%    74%                                       74%


                                                                                    71%
                                                                                            70%
                            70%




                            65%
                                  1997   1998   1999   2000   2001   2002   2003   2004   2005




Absent Reauthorization, the Appropriations Process
Can Provide Needed Fiscal Discipline Over Amtrak’s
Operating Losses
The system needs to be fundamentally restructured through a reauthorization. In
the absence of a reauthorization last year, the Appropriations Committee
established a process in FY 2006 to achieve meaningful, but incremental,
operational reforms. We believe this process is not a substitute for reauthorization,
but it is of considerable value nonetheless; and we strongly encourage Congress to
continue it in FY 2007.

The FY 2006 Appropriations bill specifically directs Amtrak to achieve savings
through operating efficiencies, including, but not limited to, modifications to food
and beverage service and first-class service. The bill also exerts pressure on
Amtrak to reform by reducing Amtrak’s operating subsidy from the FY 2005 level
of $570 million to $495 million. (A 1-percent recision, $4.95 million, and a

                                                                                                  6
designation of $5 million for the development of a managerial cost accounting
system, combined to reduce the funds available to subsidize ongoing operations to
$485 million.) In addition, $31.7 million was made available for an efficiency
grant program aimed at providing additional capital investments if Amtrak reduces
operating costs to live within its FY 2006 Federal operating subsidy.

The FY 2006 Appropriation bill also requires our office to report quarterly to this
Committee and its counterpart in the House on whether or not and to what extent
Amtrak has achieved savings as a result of operational reforms. We must certify
whether or not Amtrak has achieved such savings by July 1, 2006 if Amtrak is to
continue its use of FY 2006 appropriated funds to subsidize the net losses from
food, beverage, and sleeper car service on any Amtrak route.

In our January 5, 2006 report to this Committee, we set Amtrak's overall operating
subsidy baseline at $586 million. This baseline represents Amtrak's FY 2006
projected operating loss after accounting for anticipated costs and revenue
adjustments. It also reflects the savings resulting from initiatives implemented in
FY 2005 and FY 2006 prior to our issuing the report.

This fiscal year, Amtrak will need to achieve $101 million in savings from the
$586 million operating loss baseline to operate within its Federal subsidy. In
addition to sustainable operational reforms, Amtrak plans to rely on one-time
actions, and revenue increases to meet its end of year budget goals. One-time
actions will not be considered as part of our July certification process. It is our
opinion that Congress intended us to consider only those savings from sustainable,
structural reforms when we decide in July whether or not Amtrak has achieved
enough savings from operational reforms to warrant certification.

Amtrak Needs to Respond Aggressively to the
Appropriations Bill Requirements and See These
Initiatives Through to Completion

To address needed savings from operational reform, Amtrak has developed an
implementation plan for 15 new initiatives. These include a plan for restructuring
its food and beverage service and dining and lounge car operations over several
years; adopting a reliability-centered maintenance approach to increase fleet
maintenance efficiencies; consolidating maintenance facilities and reducing
maintenance overtime; outsourcing and reducing staff at stations; improving fuel
efficiency; renegotiating labor agreements to eliminate outsourcing and work rule
restrictions; and reducing outside legal fees. Other initiatives such as restructuring
long-distance train services, improving financial management systems, and

                                                                                    7
improving service reliability on the Northeast Corridor are only in the beginning
planning stage. Our Quarterly Reports will examine Amtrak’s reform efforts to
determine whether Amtrak is fully addressing potential reform opportunities and
whether planned initiatives are meeting their stated goals and are sustainable over
the long-term.

The initial focus of Amtrak’s reform efforts is its food and beverage service. The
company has made strides in reforming its food service provision and may have in
place a process that will achieve break-even or marginally profitable provision of
food service on its trains. Amtrak plans to implement its strategic initiatives,
including food and beverage service, over a 6-year period, with some not fully
implemented until FY 2012. Once fully implemented, Amtrak projects savings of
$190 million a year from these initiatives.

Our preliminary analysis of Amtrak’s operating savings for the first 4-months of
FY 2006 indicate that only about $20 million in such savings can be expected this
fiscal year. These savings amount to only 20 percent of the savings Amtrak must
achieve to live within its FY 2006 Federal operating subsidy. Amtrak plans to
close the remaining gap with one-time actions and budget adjustments, spending
the remaining FY 2005 year-end cash reserves, and better-than-projected revenue
performance.

These short-term gap-closing actions will not reduce Amtrak’s need for subsidies
in FY 2007 or beyond. In addition, Amtrak initially planned to rely on the
$31.7 million Efficiency Incentive Grant to make ends meet in FY 2006 and
reduce the need for further operational savings. As we stated in our January
Quarterly Report, we do not believe it would be appropriate to anticipatorily count
these discretionary grants toward achieving the required savings. Congress should
require a business plan from Amtrak that does not rely on these savings and
specifically identifies all the savings required to operate within its FY 2006
resources. Congress should also continue the pressure on Amtrak to be expansive
and aggressive in the scope and pace of implementing long-term, structural
operating reforms.

As mentioned earlier, Amtrak needs to address the cost of providing long-distance
service, and, in particular, first-class sleeper service. In July 2005, we reported
that Amtrak could save between $75 million and $158 million in annual operating
costs by eliminating sleeper car service, outsourcing food and beverage service,
and eliminating other amenities on long-distance trains. The plan Amtrak is
preparing on how to improve the operational and financial performance of these
trains needs to fully address these areas for potential significant savings.



                                                                                 8
Reauthorization is a Better Course for Reforming
Intercity Passenger Rail Service
Incremental operating savings over the next 5 or 6 years will not be sufficient to
fund the significant increases in capital investment required to return the system to
a state-of-good-repair and promote corridor development. This mismatch of
funding sources and needs requires a long-term solution that can be achieved only
by changing the model for intercity passenger rail.

To create a new model for intercity passenger rail, a comprehensive
reauthorization that provides new direction and adequate funding is needed. The
problem with the current model extends beyond funding—there are inadequate
incentives for Amtrak to provide cost-effective service; state-of-good-repair needs
are not being adequately addressed; and states have insufficient leverage in
determining service delivery options, in part because Amtrak receives Federal rail
funds, not the states.

Reauthorization should establish meaningful reforms that ensure greater cost-
effectiveness, responsiveness, and reliability in the delivery of passenger rail
transportation. Three central themes will drive successful reform.

   • Improvements in Cost-Effectiveness. Amtrak, as the sole provider of
     intercity passenger rail service has few incentives, other than the threat of
     budget cuts or elimination, for cost control or delivery of services in a cost-
     effective way. Amtrak has not achieved significant costs savings since its
     last reauthorization.

   • States Need a Larger Voice in Determining Service Requirements. The
     current model for providing intercity passenger service does not put states
     in a position to decide upon the best mix of service for their needs—what
     cities are served, schedules and frequency of service, and what amenities
     should be provided. Those decisions are made by Amtrak, and they are not
     always in the best interests of the states served. Intercity passenger rail
     would be better served with state-led initiatives as to where and how
     intercity passenger rail service is developed. States are best able to
     determine the level of passenger rail service required to meet their strategic
     transportation needs and state sponsorship will become increasingly
     important as they will be asked to provide increased operating and
     investment support. Capital funding decisions, as with mass transit, should
     ultimately reside with the Department of Transportation, based on
     congressional direction and in partnership with the states.


                                                                                   9
   • Adequate and Stable Federal Funding is Essential.              None of the
     corridors around the country, including the Northeast Corridor, can provide
     the type of mobility needed without significant capital investment. In the
     NEC, this means bringing the existing facilities to a state-of-good-repair
     with no match requirement. In other corridors around the country, it means
     creating the infrastructure for high-frequency services in partnership with
     freight railroads and commuter authorities. A robust Federal program of
     capital matching grants will be essential if these corridors are to be
     developed. In addition, long-distance services that provide connections
     between corridors require recapitalization if they are to be run efficiently
     and are to provide the high quality services their passengers deserve. None
     of this, however, implies giving more money directly to Amtrak, especially
     under the current model.

In our view, a framework for reauthorization requires the incorporation of six core
elements.

   1. Formula Grants to States for Capital and Operating Costs.               This
      program would address the needs of areas served by long-distance routes
      that have little corridor development potential, while simultaneously
      creating incentives for states to encourage operating efficiencies from the
      service operator. Formula funds can be used for operating expenses, capital
      maintenance, and/or capital improvements at the discretion of the states and
      have no match requirement.

   2. Restoration of the Forward-Going System to a State-of-Good-Repair.
      This program would provide Federal funds, with no match required, to
      address the accumulated backlog of deferred investment and maintenance
      on the NEC and in fleet and facilities outside the NEC. After a state-of-
      good-repair has been achieved, capital funds with a reasonable state match
      would be available for capital maintenance.

   3. Capital Matching Grants to States for Development of Corridor
      Services. This program would give states the ability to improve and
      expand routes and service on their supported corridor routes through a
      Federal capital funding program with a reasonable state match requirement.

   4. Setting Federal and State Funding of These Programs at Adequate
      Levels. Federal funding levels, along with state contributions have not
      been sufficient to subsidize operations, address deferred capital needs, and
      significantly improve service along the existing rail network. It will require



                                                                                 10
      minimum Federal funding of $2.0 billion a year to restore the system to a
      state-of-good-repair and provide funding for new corridor development.

   5. Resolution of the Legacy Debt Issue. This element would give the
      Secretary the authority to evaluate Amtrak’s debt and to take action in the
      best interest of intercity passenger rail that is economically advantageous to
      the United States Government.

   6. Resolution of Northeast Corridor Ownership.                 The NEC is of
      considerable interest in reauthorization. Unlike the rest of the passenger
      rail system, Amtrak owns the infrastructure between Boston and
      Washington, D.C. The Federal Government may decide to take on the
      responsibility of restoring the NEC to a state-of-good-repair, and its debt—
      if it is determined to be in the public’s interest to do so. Once the NEC is
      returned to a state-of-good-repair, the states can take a larger responsibility
      in directing and managing ongoing operations and maintenance. In return
      for fully funding the corridor, the Federal Government may decide to take
      title to Amtrak’s assets. Although Amtrak may very likely remain the
      operator for NEC, we will be in a better position to decide what is the best
      use and ownership structure of NEC assets by the end of the reauthorization
      period.

This framework would require cost efficiencies as Federal funds available to cover
operating losses would decline over the 5-year reauthorization period.
Specifically, it would give states greater responsibility for passenger rail
investments with oversight of capital investment vested in the Department.
Additionally, it would focus Federal funding on stable and robust capital
investment programs that would bring the system to a state-of-good-repair,
maintain it in that condition, and provide for the development of corridors
throughout the country.

Mr. Chairman, that concludes my statement. I would be happy to answer any
questions at this time.




                                                                                  11
